FEDERAL TRADE COMMISSION
             OFFICE
               OF
       INSPECTOR GENERAL




   SEMIANNUAL REPORT
      TO CONGRESS


APRIL 1, 2003 - SEPTEMBER 30, 2003




                               Report #29
The Honorable Timothy J. Muris
Chairman
Federal Trade Commission
600 Pennsylvania Avenue, N.W.
Washington, D.C. 20580

Dear Chairman Muris:

       The attached report covers the Office of Inspector General's (OIG) activities for the
second half of fiscal year 2003, and is submitted according to Section 5 of the Inspector General
Act of 1978, as amended.

        During the six-month period ending September 30, 2003, the OIG issued a report on the
status of the FTC’s compliance with the Federal Information Security Management Act. The
OIG found that the FTC continues to make progress in developing a mature information security
program and that the agency is more secure today than it was a year ago. The audit also found
that not every major system was Certified and Accredited and that the agency’s Plan of Action
and Milestones did not reflect all security system vulnerabilities as mandated by OMB.
Management, after reviewing the findings, agreed to move forward to correct these deficiencies.

       The OIG also started field work on its fiscal year 2003 financial statement audit. Finally,
the OIG closed four investigations during the period, referring selected findings of staff
wrongdoing to management for appropriate action.

       As in the past, management has been responsive to all OIG recommendations. I
appreciate management's support, and I look forward to working with you in our ongoing efforts
to promote economy and efficiency in agency programs.


                                                            Sincerely,


                                                            Frederick J. Zirkel
                                                            Inspector General
                                                TABLE OF CONTENTS


                                                                                                                 Page

TRANSMITTAL

INTRODUCTION................................................................................................      1

AUDIT ACTIVITIES...........................................................................................       1
     Completed Audits.....................................................................................        1
     Summary of Findings for Audits Issued During the Current Period........                                      1
     Audits in Which Fieldwork is in Progress...............................................                      3
     Planned Audits .........................................................................................     4

INVESTIGATIVE ACTIVITIES.........................................................................                 6
     Investigative Summary.............................................................................           6
     Matters Referred for Prosecution..............................................................               8

OTHER ACTIVITIES..........................................................................................        8
     PCIE/ECIE Activities..............................................................................           8
     Significant Management Decisions..........................................................                   8
     Access to Information...............................................................................         9
     Internet Access..........................................................................................    9
     Audit Resolution.......................................................................................      9
     Review of Legislation...............................................................................         9
     Contacting the Office of Inspector General..............................................                    10

TABLES
     Table I:                Summary of Inspector General Reporting Requirements.....                            11

          Table II:          Inspector General Issued Reports With Questioned Costs....                          12

          Table III:         Inspector General Issued Reports With Recommendations
                             That Funds Be Put To Better Use........................................             13
                                       INTRODUCTION

        The Federal Trade Commission (FTC) seeks to assure that the nation’s markets are
competitive, efficient and free from undue restrictions. The FTC also seeks to improve the
operation of the marketplace by ending unfair and deceptive practices, with emphasis on those
practices that might unreasonably restrict or inhibit the free exercise of informed choice by
consumers. The FTC relies on economic analysis to support its law enforcement efforts and to
contribute to the economic policy deliberations of Congress, the Executive Branch, and the
public.

        To aid the FTC in accomplishing its consumer protection and antitrust missions, the
Office of Inspector General (OIG) was provided five workyears and a budget of $747,200 for
fiscal year 2003.


                                     AUDIT ACTIVITIES

        During this semiannual period, the OIG issued its annual report on computer and
information security pursuant to the Federal Information Security Management Act (FISMA),
and prepared, together with the agency’s Chief Information Officer (CIO), an executive
summary assessing how well the agency measured up to government-wide IT performance
standards. The OIG also began fieldwork on its annual financial statement audit, and
participated in a peer review of its audit quality control program. Details of these audits and
reviews are provided below.

                                       Completed Audits

Audit Report Number                                     Subject of Audits

     AR 03-056                       Review of the Federal Trade Commission Implementation
                                     of the Federal Information Security Management Act for
                                     Fiscal Year 2003

     AR 03-056A                      Federal Information Security Management Act –
                                     Executive Summary


             Summary of Findings for Audits Issued During the Current Period

      In AR 03-056 and AR 03-056A, Review of the Federal Trade Commission Implementation
of the Federal Information Security Management Act for Fiscal Year 2003, the OIG performed
an evaluation of information security at the FTC pursuant to requirements contained in the
Federal Information Security Management Act (FISMA). This is the third annual evaluation

                                                1
completed by the OIG in the area of information and computer security. This year’s review
objectives were to assess compliance with FISMA and related information security policies,
procedures, standards and guidelines, and to test their effectiveness on a representative subset
of the agency’s information systems.

      The FTC continued to make progress in developing a mature information security
program, and has implemented or addressed OIG-identified security vulnerabilities discussed
in the prior year evaluation. For example, the FTC developed (i) security plans for its major
applications and general support system; (ii) policies and procedures that addressed various
security issues, such as password management, incident response reporting, remote access, and
certification and accreditation; (iii) a Disaster Recovery Plan; and (iv) a new IT security
awareness program.

     As a result of these and other actions, the OIG believes that the FTC is more secure today
(from an information security perspective) than it was just one year ago.

      For FY 2003, OMB identified a number of specific vulnerabilities that must be reported
as “significant deficiencies.” Using this OMB guidance, the OIG identified two significant
deficiencies for FY 2003, along with other less significant security vulnerabilities that need to
be addressed.

      First, the OIG found that only one of seven systems was certified and accredited. OMB
requires that all major applications and general support systems undergo a security
certification and accreditation once every three years, or sooner if the system has undergone
major modifications. By having its systems certified and accredited, the agency gains
assurances that its security controls work as anticipated, and that the agency’s computer
security officer officially accepts the level of risk associated with operating the system.

      Next, OMB requires agencies to identify vulnerabilities from all audits, studies and
evaluations performed on IT systems on a single corrective action plan called a Plan of Action
and Milestones (POA&M). A POA&M is a tool that identifies tasks that need to be
accomplished, including required resources and scheduled completion dates. The OIG found
that ITM was tracking only OIG-identified vulnerabilities from the annual independent
evaluations, and had not been routinely tracking vulnerabilities flowing from other security
program efforts, such as annual self assessments. Having a comprehensive list of
vulnerabilities helps the agency to better assess its overall security posture and implement a
coordinated approach to prioritizing and addressing its IT vulnerabilities.

       The OIG also performed internal scans of the FTC network and an external penetration
test to assess the effectiveness of security controls. While the outcome for the tests was
generally favorable, the OIG noted that some of the same vulnerabilities identified in prior
scans were identified again, but on different machines. Further, the external test identified
other vulnerabilities on the FTC’s web servers that caused them to provide more information
about their configuration than is needed. Scan results were provided to the computer security
officer for additional analysis and action.
                                                2
      In the Executive Summary to the FISMA security evaluation, the OIG assessed agency
progress against OMB-identified computer security standards. This was a quantitative
assessment of the extent to which the agency meets established IT security standards. For
example, the OIG identified the frequency of self assessments and security reviews, how the
agency documents and tracks its IT vulnerabilities, and the extent to which security is
integrated into the planning and life cycle of the agency’s major systems.


                         Audits in Which Field Work is in Progress


Audit Report Number                         Subject of Audit

     AR 04-XXX              Audit of FTC Financial Statements for Fiscal Year 2003. The
                            Accountability of Tax Dollars Act requires the Commission, along
                            with many other federal agencies, to submit audited financial
                            statements to the Office of Management and Budget (OMB).
                            Although not required to prior to this fiscal year, the FTC has, for
                            the past six fiscal years, submitted audited financial statements to
                            OMB as a foundation of its efforts to maintain sound financial
                            management within the agency.

                            As in past years, the objective of this year’s financial audit is to
                            determine whether the agency’s financial statements present fairly
                            the financial position of the agency. The statements to be audited
                            are the Balance Sheet as of September 30, 2003, and the related
                            Statement of Net Cost, Statement of Changes in Net Position,
                            Statement of Budgetary Resources, Statement of Financing, and
                            Statement of Custodial Activity for the year then ended.

                            Audit fieldwork performed during this period included preliminary
                            tests of internal and management controls over the accumulation
                            and reporting of financial information, and compliance with laws
                            and regulations that have a material effect on the financial
                            statements.

                            In addition to following up on audit findings identified in last
                            year’s management letter, the OIG will also continue to work with
                            program staff to improve the accuracy, timeliness and usefulness
                            of (i) the agency’s performance measures and (ii) financial
                            information submitted to the FTC by court-appointed receivers.
                            The OIG also plans to conduct some additional tests to verify that
                            companies seeking agency approval to merge with or acquire other

                                              3
                      firms are paying filing fees in keeping with mandated thresholds
                      and assessment formulas.


                                Planned Audits

Audit Report Number                     Subject of Audit

    AR 04-XXX         Program Inspection: An Evaluation of Controls Over
                      The Transit Subsidy Program. The Federal Government
                      encourages the use of public mass transportation by its
                      employees. Executive Order 13150, "Federal Workforce
                      Transportation," effective October, 2000, permits Federal
                      agencies in the National Capital Region to provide
                      employees with public transit subsidies approximating their
                      commuting costs up to $100 per month (as of January 1,
                      2002). The FTC provides about $700,000 in benefits to
                      between 650 and 700 employees annually.

                      The Office of Executive Director has overall responsibility for
                      program planning, implementation and evaluation of the
                      effectiveness of the subsidy program in achieving policy
                      objectives. The Department of Transportation manages the
                      program government wide.

                      To participate in the program, employees must complete an
                      application form certifying the amount of their expected monthly
                      transportation costs. Subsidies are provided in the form of
                      Metrochek vouchers, which can be used as fare cards on Metrorail
                      or to purchase bus or train tickets.

                      The objectives of this program inspection are to determine whether
                      (i) funds are being disbursed in accordance with agency policy;
                      and, (ii) adequate controls are in place to prevent program abuse
                      by employees and/or program administrators.

    AR04-XXX          Audit of the Use of Government Purchase and Travel Cards.
                      Recent reports by the General Accounting Office and Inspectors
                      General, as well as congressional hearings and press reports, have
                      raised serious concerns regarding the adequacy of internal control
                      systems that monitor the use of the more than 2.5 million
                      government-issued credit cards in circulation. To date, millions of
                      dollars of fraudulent and unauthorized expenditures have been
                      made using these cards. While the purchase and travel card
                      programs have increased efficiency in the federal acquisition
                      process, they have also created new opportunities for fraud and
                      abuse.

                                        4
               The overall objective of this review will be to insure that the credit
               card programs have effective internal controls to prevent abuses.
               The OIG will also perform transaction tests to identify (i)
               potentially fraudulent, improper and abusive uses of purchase
               cards: and (ii) any long-standing patterns of purchases of
               prohibited items by travel cardholders.

   AR 04-XXX   Audit Survey: Access by Businesses to Registration
               Instructions and Other Information About the Do Not
               Call Registry. Many consumers do not want to be called
               by telemarketers. Industry experts estimated that as of
               June, 2003, telemarketers attempted approximately 104
               million calls to consumers and businesses every day. To
               help address the problem of unwelcomed calls, the FTC, on
               January 29, 2003, issued an amended Telemarketing Sales
               Rule (TSR).

               The revised TSR establishes a national “Do Not Call” (DNC)
               registry for consumers that makes it illegal for for-profit
               telemarketers to call consumers who have placed their phone
               numbers on the national registry. To date, there are approximately
               52 million numbers on the registry.

               Under the rule, telemarketers are required to scrub their call lists
               against the national "do not call" registry at least once every 90
               days. Businesses that fail to comply are subject to a fine of up
               to$11,000 per violation. Consequently, the timely access to
               information on how to register with the FTC and download
               numbers from the registry is critical if businesses are to comply
               with the TSR and avoid the potentially heavy fines associated with
               violating the rules.

               The OIG has received comments from business organizations who
               are subject to the TSR rules saying registration information is not
               readily available or is difficult to locate on the FTC’s web site.

               Consequently, the OIG plans to review the DNC web site for ease
               of access along with agency’s policies and procedures on staff
               responsiveness to businesses that have DNC related questions.


AR 04-XXX      Review of Quarterly Plan of Action and Milestones
               (POA&M) Reports. OMB requires agencies to prepare, on a
               quarterly basis, a plan that addresses all identified security
               vulnerabilities. These reports serve to hold agencies

                                 5
                              accountable for addressing vulnerabilities in a timely manner
                               In the past, the OIG reviewed the quarterly POA&M at
                              year-end as part of its annual IT security review. To enhance
                              accountability, the OIG will instead review agency quarterly
                              submissions when the reports are issued. This will enable the OIG
                              to provide more timely feedback to management on the results of
                              its efforts to address identified weaknesses.


                               INVESTIGATIVE ACTIVITIES

      The Inspector General is authorized by the IG Act to receive and investigate allegations of
fraud, waste and abuse occurring within FTC programs and operations. Matters of possible
wrongdoing are referred to the OIG in the form of allegations or complaints from a variety of
sources, including FTC employees, other government agencies and the general public.

      Reported incidents of possible fraud, waste and abuse can give rise to administrative, civil
or criminal investigations. OIG investigations might also be initiated based on the possibility of
wrongdoing by firms or individuals when there is an indication that they are or were involved in
activities intended to improperly affect the outcome of particular agency enforcement actions.
Because this kind of wrongdoing strikes at the integrity of the FTC's consumer protection and
antitrust law enforcement missions, the OIG places a high priority on investigating it.

      In conducting criminal investigations during the past several years, the OIG has sought
assistance from, and worked jointly with, other law enforcement agencies, including other
OIG’s, the Federal Bureau of Investigation (FBI), the U.S. Postal Inspection Service, the U.S.
Secret Service, the Internal Revenue Service, Capitol Hill Police, as well as state agencies and
local police departments.


                                    Investigative Summary

      During this reporting period, the OIG received 68 complaints/allegations of possible
wrongdoing. Of the 68 complaints, 34 involved issues that fall under the jurisdiction of FTC
program components (identity theft, credit repair, etc.). Consequently, the OIG referred these
matters to the appropriate FTC component for disposition. Another four complaints were
referred to other government and/or law enforcement agencies for ultimate disposition.

     Of the remaining 30 complaints, 24 were closed without action; two are being monitored
during the pendency of an administrative adjudication at the FTC; and four are matters that are
under investigation by the OIG.

     Following is a summary of the OIG's investigative activities for the six-month period
ending September 30, 2003.



                                                6
               Cases pending as of 03/31/03........................       5
                      Plus: New cases.................................   +4
                      Less: Cases closed.............................    (4)
               Cases pending as of 9/30/03..........................      5

      The first closed investigation resulted from an allegation made by a credit reporting and
collection agency that an individual had used mock-FTC letterhead to write two letters to the
credit reporting and collection agency. The letters, which purportedly were sent by an FTC staff
attorney in a non-existent FTC regional office, attempted to mislead the company into believing
that the FTC not only supported the named individual debtor in her dispute with the credit
reporting and collection agency, but also that the FTC was challenging the credit reporting and
collection agency’s debt collection and credit reporting practices. The purported author of the
two bogus FTC letters was informed of the criminal sanctions associated with posing as a federal
official, in particular using indicia of an official nature such as FTC letterhead. As no additional
bogus correspondence was received by the credit reporting agency, the case was closed.

      The OIG closed a second investigation that related to similar conduct. This investigation
involved allegations that an individual sent a mock-FTC letter to a national credit bureau that
was written to mislead the credit bureau into believing that the FTC supported the individual in
the dispute with his creditor. The mock-FTC form letter was created using the letterhead from
correspondence the person had received from the Consumer Response Center.

      The OIG contacted the suspected author of the bogus letter informing him of the criminal
sanctions associated with posing as a federal official, in particular using indicia of an official
nature such as FTC letterhead. The OIG also informed the individual that if we learned of such
conduct in the future, a referral to a prosecutor would be considered. Thereafter, we closed the
case.

     The third closed investigation involved OIG assistance to agents from the Department of
Homeland Security (DHS) to investigate scam artists using the name of the Federal Trade
Commission to legitimize their scam. Specifically, individuals who were targeted were provided
a number to call to verify the authenticity of the “prize” they had just won. The person
answering the phone claimed to be an employee of the FTC, who then proceeded to assure the
consumer that the prize was real. To receive the prize, consumers were asked to pay a fee.

      The OIG searched the agency’s consumer complaint system for any prior complaints
against these individuals, along with the agency’s “final order” database to determine whether
the individuals were already under FTC order to halt deceptive practices. Program staff were
then provided with our findings. They proceed to assist the DHS agent by providing the names
of prosecutors from the U.S. Attorney’s Office. DHS agents working with a federal prosecutor
in Florida continue to pursue the scammers. The OIG closed its investigation after making a
referral to staff.

    The OIG closed a fourth investigation that resulted from a complaint made by agency
management concerning an FTC employee’s alleged misuse of position for personal gain. The

                                                      7
OIG developed evidence that indicated that the employee in question misused his/her position
and violated IT policy regarding unauthorized access to private information contained in agency
systems. A final investigative report was submitted to management, and sanctions against the
employee are being considered.

     As part of this investigation, the OIG identified systemic weaknesses that allowed this
abuse to occur unnoticed. The OIG made three recommendations for corrective action that
would strengthen management’s ability to monitor its data systems and identify violators.
Management has informed the OIG that it has taken steps to implement the recommendations.


                               Matters Referred for Prosecution

     During the current reporting period the OIG did not refer any cases to a federal prosecutor.


                                     OTHER ACTIVITIES


                                     PCIE/ECIE Activities

Peer Review Activities – Federal Offices of Inspector General are required by the IG Act to
have a peer review performed of their organization once every three years. These reviews are to
be performed only by federal auditors. A committee of the Executive Council on Integrity and
Efficiency (ECIE) schedules the review to ensure that resources are available to perform them
and that OIG’s do not conduct reviews of one another.

      Against this background, the FTC/OIG was reviewed by audit staff from the Federal
Communications Commission. The objectives of a peer review are to determine for the audit
function whether an effective internal quality control system has been established in the office
and if policies, procedures and applicable government auditing standards are being followed.

     The review team found that the system of quality control for the audit function of the FTC
OIG in effect for the year ended May 31, 2003, was designed in accordance with the quality
standards established by the PCIE and was being complied with for the year then ended to
provide the OIG with reasonable assurance of material compliance with professional auditing
standards in the conduct of its audits. Consequently, the FTC/OIG received an unqualified
opinion on its system of audit quality control.


                              Significant Management Decisions

      Section 5(a)(12) of the Inspector General Act requires that if the IG disagrees with any
significant management decision, such disagreement must be reported in the semiannual report.
Further, Section 5(a)(11) of the Act requires that any decision by management to change a
significant resolved audit finding must also be disclosed in the semiannual report. For this

                                                8
reporting period there were no significant final management decisions made on which the IG
disagreed, and management did not revise any earlier decision on an OIG audit recommendation.

                                      Access to Information

     The IG is to be provided with ready access to all agency records, information, or assistance
when conducting an investigation or audit. Section 6(b)(2) of the IG Act requires the IG to
report to the agency head, without delay, if the IG believes that access to required information,
records, or assistance has been unreasonably refused, or otherwise has not been provided. A
summary of each report submitted to the agency head in compliance with Section 6(b)(2) must
be provided in the semiannual report in accordance with Section 5(a)(5) of the Act.

      During this reporting period, the OIG did not encounter any problems in obtaining
assistance or access to agency records. Consequently, no report was issued by the IG to the
agency head in accordance with Section 6(b)(2) of the IG Act.

                                          Internet Access

      The OIG can be accessed via the world wide web at: http://www.ftc.gov/oig. A visitor to
the OIG home page can download recent 1996-2003 (first half) OIG semiannual reports to
Congress, the FY 1998 - 2002 financial statement audits, and selected other program and
performance audits issued beginning in FY 1999. A list of audit reports issued prior to FY 1999
can also be ordered via an e-mail link to the OIG. In addition to this information resource about
the OIG, visitors are also provided a link to other federal organizations and offices of inspectors
general.

                                         Audit Resolution

      As of the end of this reporting period, all OIG audit recommendations for reports issued in
prior periods have been resolved. That is, management and the OIG have reached agreement on
what actions need to be taken.

                                      Review of Legislation

       Section 4(a)(2) of the IG Act authorizes the IG to review and comment on proposed
legislation or regulations relating to the agency or affecting the operations of the OIG. During
this reporting period, the OIG provided comments to the PCIE legislative committee on a number
of personnel proposals developed by the committee affecting the staff of all federal statutory
inspectors general.

                           Contacting the Office of Inspector General

      Employees and the public are encouraged to contact the OIG regarding any incidents of
possible fraud, waste, or abuse occurring within FTC programs and operations. The OIG
telephone number is (202) 326-2800. To report suspected wrongdoing, employees and the public
should call the OIG's chief investigator directly on (202) 326-2618. A confidential or anonymous


                                                 9
message can be left 24 hours a day. Complaints of allegations of fraud, waste or abuse can also
be emailed directly to chogue@ftc.gov.

      The OIG is located in Suite 1110, 601 New Jersey Avenue, Washington, D.C. Office hours
are from 8:30 a.m. to 5:00 p.m., Monday through Friday, except federal holidays. Mail should be
addressed to:

                             Federal Trade Commission
                             Office of Inspector General
                             Room NJ-1110
                             600 Pennsylvania Avenue, NW
                             Washington, DC 20580




                                               10
                              TABLE I
                   SUMMARY OF INSPECTOR GENERAL
                      REPORTING REQUIREMENTS

   IG Act
 Reference                   Reporting Requirement                           Page(s)

Section 4(a)(2)    Review of legislation and regulations                         9

Section 5(a)(l)    Significant problems, abuses and deficiencies                 1-3

Section 5(a)(2)    Recommendations with respect to significant
                   problems, abuses and deficiencies                             2

Section 5(a)(3)    Prior significant recommendations on which
                   corrective actions have not been made                         9

Section 5(a)(4)    Matters referred to prosecutive authorities                   8

Section 5(a)(5)    Summary of instances where information was refused            9

Section 5(a)(6)    List of audit reports by subject matter, showing dollar
                   value of questioned costs and funds put to better use        1

Section 5(a)(7)    Summary of each particularly significant report               1

Section 5(a)(8)    Statistical tables showing number of reports and
                   dollar value of questioned costs                             12

Section 5(a)(9)    Statistical tables showing number of reports and dollar
                   value of recommendations that funds be put to better use      13

Section 5(a)(10)   Summary of each audit issued before this reporting
                   period for which no management decision was made
                   by the end of the reporting period                               9

Section 5(a)(11)   Significant revised management decisions                         8

Section 5(a)(12)   Significant management decisions with which
                   the inspector general disagrees                                  8




                                            11
                                TABLE II
                    INSPECTOR GENERAL ISSUED REPORTS
                         WITH QUESTIONED COSTS


                                              Number             Dollar Value


                                                       Questioned        Unsupported
                                                         Costs             Costs

A. For which no management decision
   has been made by the commencement
   of the reporting period                         0       0             [      0   ]

B. Which were issued during the
   reporting period                                1    8,400            [      0   ]

   Subtotals (A + B)                               1    8,400            [      0   ]

C. For which a management decision
   was made during the reporting period            0       0             [      0   ]

   (i) dollar value of disallowed costs            0       0             [      0   ]

   (ii) dollar value of cost not disallowed        0       0             [      0   ]

D. For which no management decision was
   made by the end of the reporting period         1     8,400           [      0   ]

   Reports for which no management
   decision was made within six months
   of issuance                                     0       0             [      0   ]




                                              12
                                         TABLE III

          INSPECTOR GENERAL ISSUED REPORTS
 WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE


                                                     Number   Dollar Value


A. For which no management decision has been
   made by the commencement of the reporting
   period                                              0          0

B. Which were issued during this reporting
   period                                              0          0

C. For which a management decision was
   made during the reporting period                    0          0

   (i) dollar value of recommendations
       that were agreed to by management               0          0

       - based on proposed management
         action                                        0          0

       - based on proposed legislative
         action                                        0          0

   (ii) dollar value of recommendations
        that were not agreed to by
        management                                     0          0

D. For which no management decision has been
   made by the end of the reporting period             0          0

   Reports for which no management decision
   was made within six months of issuance              0          0




                                              13
